                          



            DEPARTMENT OF THE INTERIOR
            OFFICE OF INSPECTOR GENERAL

             AUDIT REPORT




       BUREAU OF LAND MANAGEMENT
      MINING CLAIMANT ADMINISTRATION
    Report No. C-IN-BLM-0011-2008   May 2009
 
 


Background of BLM Administration of Mining Claims  

The General Mining Law of 1872 established the rights of individuals to explore, claim, and
mine public lands containing mineral deposits. This law promoted the development and
settlement of the American West but required little mitigation of the physical and
environmental hazards that mining created. In fact, mine operators were not required to
mitigate the hazards they created until 1976 and the passage of the Federal Land Policy
Management Act (FLPMA). Prior to FLPMA, claimants left hundreds of thousands of
abandoned mine sites on public lands. Today, many of these sites present serious safety
hazards to the public, including open shafts and unstable tunnels, deadly gases, explosive and
toxic chemicals, and rotting structures. Unfortunately, current claimants may not even be
aware of abandoned mine hazards on their claims.

BLM established its Abandoned Mine Lands Program to protect the public from these
hazards. To successfully mitigate these sites and protect claimant rights, BLM must
coordinate with current claimants even though they are not responsible for mitigating
abandoned mine hazards on their claims. Mitigation may include temporary measures, such
as fencing and signs, or more permanent and costly measures, such as concrete or metal mine
shaft covers.


What We Found 
BLM is missing opportunities to enhance public safety by neither coordinating with
claimants as it takes steps to identify and mitigate hazards on public lands itself nor actively
seeking claimant cooperation and assistance in mitigating the hazards.

Mining Claim Identification  
As required, BLM maintains an inventory of known abandoned mine hazards. BLM
employees, however, are not required to and do not typically identify whether or where such
hazards are located on existing mining claims, which makes subsequent claim and claimant
identification difficult. BLM field staff told us that often the only way to determine if a
hazard is on a claim is to visit the site and locate the claim boundary markers. This process is
both labor and time intensive.  
 
Notification of Claimants and Solicitation of Cooperation  
Historically, BLM has rarely contacted claimants to request cooperation and assistance in
mitigating hazards. To determine whether BLM has begun to work effectively with mining
claimants over the last few months, we developed a questionnaire for BLM offices. We
received 53 responses from 6 state offices, 3 district offices, and 44 field offices. Responses
to the questionnaire revealed that most offices do not notify claimants of hazards on their
claims or request that claimants assist in the mitigation of those hazards. The reasons they
provided included the difficulty of precisely locating mining claims and of identifying the
respective claimants. In addition, we found that confusion exists among BLM field staff
regarding claimant responsibilities. Some staff members believe that claimants have total

                                                2  
                                                  
 


responsibility for mitigating all abandoned mine hazards on their claims, while others believe
the claimants have no responsibility.

Under federal law, claimants are ultimately not responsible for mitigating abandoned mine
hazards; however, they may be interested in mitigating any such hazards on their claims for a
variety of reasons, including:

    •   Concern for public safety: To promote public safety on their claims.

    •   Future use: To preserve mining features, such as shafts and tunnels, to use in future
        operations instead of allowing BLM to permanently seal them. In such cases,
        claimants might take responsibility for the features and implement temporary
        mitigation measures, such as fencing and signs to protect and warn the public of the
        hazards.

    •   Statutory compliance: To comply with state laws. Nevada and Arizona both have
        statutes requiring claimants to mitigate known abandoned mine hazards. Nevada’s
        statute (Nevada Administrative Code, Chapter 513) requires claimants to post
        warning signs at dangerous abandoned mine hazards within 30 days of notification
        and to mitigate hazards with barricades, fences, seals, or backfilling. Arizona’s
        Statute (Arizona Statute 27-318) requires claimants to cover, fence, fill or otherwise
        secure the hazard and post warning signs within 60 days. Neither statute assigns
        responsibility based on when or by whom the hazard was created.

    •   Potential liability: To avoid potential lawsuits due to the liability associated with
        people being injured or killed by abandoned mine hazards on their claims.
        Establishment of liability could be especially successful in states with statutes that
        require claimants to mitigate such abandoned mine hazards.

Whatever their motivation might be, claimants are not likely to do anything concerning
abandoned mine hazards on their claims unless BLM notifies them of the hazards and
requests their assistance. One field office has been successful in that regard. BLM’s Elko
Field Office told us they had success in getting hazards mitigated by claimants. The field
office sent letters to claimants 1) notifying them of abandoned mine hazards on their claims,
2) requesting they accept responsibility for those hazards, and 3) informing them that BLM
would mitigate the hazards if they did not.

We believe that other offices will soon be able to achieve the same success as a result of
BLM’s new Instruction Memorandum (IM) No. 2009-034, issued November 28, 2008. This
IM implements a new effort called FAST! (Fix a Shaft Today!), which is designed to develop
partnerships with other governmental agencies and private organizations to accelerate
mitigation of abandoned mine hazards. The IM specifically instructs BLM state directors in
Arizona, California, Colorado, Nevada, New Mexico, and Utah to contact mining claimants
and request that they voluntarily mitigate hazards on their claims.

In addition, BLM has prepared two notices for state offices to use in contacting claimants
(Attachments 4 and 5). In the first notice, BLM describes the FAST! Program and the role
                                                3  
                                                  
 


of mining claimants. It also offers assistance to claimants with abandoned mine hazards and
informs them that mitigation can potentially save lives and reduce claimant liability. The
second notice documents recent accidents at abandoned mine sites to reinforce the
importance of timely mitigation. IM 2009-034 requires state offices to provide these notices
to all claimants in their states within 120 days or around April 1, 2009.

While we are pleased with BLM’s FAST! initiative, claimants, as noted previously, may be
unaware of hazards on their claims. The IM helps clarify BLM authority; it does not address
the need for BLM to take action to mitigate serious hazards on mining claims if claimants do
not act upon BLM’s notification.

Hazard Mitigation
After we began our audit, BLM and the Solicitor’s Office began to develop an IM that would
provide BLM staff the guidance necessary to protect the public at these sites. We see this as
a positive step because BLM — in the absence of claimant assistance — is ultimately
responsible for protecting the public by mitigating abandoned mine hazards.

With current resources, we believe BLM could mitigate the most serious abandoned mine
physical safety hazards with signs and fences. Factors that BLM uses to identify high risk
physical safety hazards include sites 1) where a death or injury has occurred; 2) that are in
close proximity to recreation sites and other areas with high visitor use; and 3) that are easily
accessible to the public. Should a claimant want to use mining features in operations,
installation of signs and fencing would not significantly interfere with access. The only truly
permanent resolution would be to fill in shafts and demolish or remove buildings and
structures.

Best Practice  
We identified one best practice within BLM that has improved public safety with regard to
abandoned mine hazards. Specifically, BLM has cooperated extensively with the State of
Nevada to identify, inventory, and mitigate hazards on abandoned mine sites where claims
may exist. A 1994 BLM and Nevada Division of Minerals Cooperative Agreement enabled
this effort.

The Agreement describes roles and responsibilities for dealing with abandoned mine hazards
on BLM land in Nevada. Per the Agreement, BLM provides annual funding to Nevada for
mitigation services. Funding for fiscal year 2008 totaled about $50,000. Since 1994, Nevada
has mitigated about 3,750 hazardous mine features on BLM land.
 
 
 
                                




                                                4  
                                                  
 


Recommendations 

Public health and safety require BLM to identify claims with serious hazards, notify
claimants, solicit claimant mitigation of hazards on their claims, and, if necessary, mitigate
the hazards. Therefore, we recommend that the Director, BLM:

1. Inform field staff of the scope of BLM’s authority to ensure that abandoned mine hazards
   on mining claims are mitigated.


BLM’s Response to the Recommendation

BLM concurred with the recommendation and stated that it will work with the Office of the
Solicitor to prepare an IM that will address BLM’s authority and field office responsibility
with regard to abandoned mine hazards on mining claims.

OIG’s Analysis of BLM’s Response

BLM is taking the necessary action to address this recommendation.

2. Complete — in cooperation with the Office of the Solicitor — and implement the
   proposed IM addressing abandoned mine hazards. At a minimum, the IM should address
   the principles identified in Attachment 3 for working with claimants to address
   abandoned mine hazards on their claims.


BLM’s Response to the Recommendation

BLM concurred in part with the recommendation and will issue the recommended IM.
However, BLM expressed concern about Attachment 3’s suggestion to “identify the precise
location of mining claims and respective claimants.” BLM does not have the ability to
precisely identify the mining claim associated with specific abandoned mine hazards because
mining claims are typically around 20 acres, however BLM’s databases only capture them in
160 acre tracts. Therefore, BLM will notify claimants of abandoned mine hazards within the
160 acre tract that includes their claims. The IM will direct field offices to require immediate
action if the claimants have utilized or intend to utilize these abandoned mine features in
conjunction with work on their mining claims. Otherwise, if claimants decline to accept
responsibility or voluntarily mitigate abandoned mine hazards on their claims, the IM will
instruct the field offices to include those hazards in the Abandoned Mine Land program and
prioritize them for mitigations.

OIG’s Analysis of BLM’s Response

We modified Attachment 3 to delete the word “precisely.” We agree with the actions that
BLM plans to take to implement this recommendation.
                                               5  
                                                 
 


3. Maximize the use of cooperative agreements with states to mitigate abandoned mine
   hazards on mining claims, particularly with those that have mine site mitigation
   enforcement laws, as do Nevada and Arizona.


BLM’s Response to the Recommendation

BLM management concurred with this recommendation and stated that it will share the
success story of the BLM’s Nevada State Office with other state offices and encourage them
to seek other best practices and seek innovative ways to address mitigation of abandoned
mine hazards on mining claims.

OIG’s Analysis of BLM’s Response

BLM is taking the necessary action to address this recommendation.



 




                                             6  
                                               
                                                                               Attachment 1
 

                                Prior Audits 

    AUDIT NO. AND TITLE                              SUMMARY

                           This report presents the results of our audit of abandoned mine
                           lands managed by BLM and the National Park Service (NPS).
                           We visited approximately 45 areas with abandoned mines from
                           March 2007 through April 2008 and talked to over 75
                           employees from 13 BLM offices and 5 national parks.

C-IN-MOA-0004-2007         We concluded that BLM and NPS are putting the public’s
                           health and safety at risk by not addressing hazards posed by
Abandoned Mine Lands       abandoned mines on their lands. Although NPS has been more
in the Department of the   effective at protecting the public, there are still many more
Interior, July 2008        sites that need to be mitigated. Mines located on BLM and
                           NPS lands primarily in the western states of California,
                           Arizona, and Nevada have dangerous physical safety and
                           serious environmental hazards. We identified abandoned
                           mines where members of the public have been killed, injured,
                           or exposed to dangerous environmental contaminants. Growth
                           of the population and use of off-road vehicles in the West will
                           increase the likelihood of additional deaths or injuries.


                           This report describes hazardous conditions at abandoned mine
                           sites in California’s Rand Mining District (District) that
C-IN-BLM-0012-2007         required immediate action to protect the health and safety of
                           the public and employees. In February 2006, BLM identified
Environmental, Health      evidence of serious environmental contamination in the
and Safety Issues at       District. Known contaminants included levels of arsenic that
Bureau of Land             were thousands of times higher than EPA-recognized safe
Management Ridgecrest      levels. Arsenic is a known carcinogen that can also cause skin,
Field Office               stomach, and nerve damage.
Rand Mining District,
CA, September 2007         While BLM has initiated a Time-Critical Removal Action
                           under the Comprehensive Environmental Response,
                           Compensation, and Liability Act, it has not taken timely action
                           to mitigate the current health risks to the public and employees.




                                           7  
                                             
                                                                                     Attachment 2
 




                         Scope and Methodology 
We performed this audit from August 2008 through February 2009. To accomplish our
objective, we relied on our prior audit fieldwork performed during the Abandoned Mine
Lands Audit (C-IN-MOA-0004-2007) and the Rand Mining District Audit (C-IN-BLM-
0012-2007). In addition, we conducted the following audit steps:


           •   Gathered general, administrative, and background information to provide us
               with a working knowledge of the mining claimant administration process.

           •   Identified and reviewed policies and procedures and other pertinent
               documentation related to the mining claimant administration process.

           •   Worked with BLM to send questionnaires (14 questions) to BLM state and
               field offices (received 55 responses).

           •   Interviewed various BLM employees, including staff from the Solid Minerals
               and Abandoned Mine Lands Programs.

           •   Interviewed officials representing the DOI Office of the Solicitor.

           •   Contacted various State agencies with responsibilities for administering and
               enforcing mining laws.

           •   Reviewed abandoned mine inventory data and BLM’s land status database,
               which includes claimant information (LR 2000 database).



We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




                                              8  
                                                
                                                                           Attachment 3
 

                                         
                    Areas To Be Addressed by  
                    Instruction Memorandum 
        AREA                                   PROCESS 

Mining Claim           How offices are to identify the location of mining claims and
Identification         respective claimants.
                        

                       How offices should notify claimants and work with them to
Notification of        ensure mitigation of hazards. 
Claimants and
Solicitation of
Cooperation 



                       How BLM field offices should proceed if claimants do not
                       exist, cannot be found, or do not mitigate hazards after being
                       notified.

Hazard Mitigation         For the most serious physical hazards, BLM should, at a
                          minimum, erect fences and signs to protect the public.

                          BLM should work with the states that have laws requiring
                          claimants to protect the public to report hazards so that
                          states can take action.
 




                                       9  
                                         
           Attachment 4
 




    10  
      
               Attachment 5
 




                               
     

        11  
          
           Attachment 5
 




                           
 

    12  
      
                                      Attachment 6
    BLM’s Response to Draft Report 
 




                  13  
                    
       Attachment 6




14  
  
       Attachment 6




15  
  
       Attachment 6




16  
  
       Attachment 6




17  
  
            Attachment 6



  




                       

     18  
       
                                                               Attachment 7


             Status of Recommendations
 
RECOMMENDATIONS            STATUS             ACTION REQUIRED 


      1- 3         Resolved; not           No further response to the
                   implemented.            Office of Inspector General is
                                           required. The recommendations
                                           will be referred to the Assistant
                                           Secretary for Policy,
                                           Management, and Budget for
                                           tracking of implementation.

 

                      




                                    19  
                                      
  Report Fraud, Waste, Abuse,
     and Mismanagement
           Fraud, waste, and abuse in government
           concerns everyone: Office of Inspector
           General staff, Departmental employees,
             and the general public. We actively
           solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
           related to Departmental or Insular Area
          programs and operations. You can report
              allegations to us in several ways.




By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW
                   Washington, D.C. 20240

By Phone:          24-Hour Toll Free            800- 424-5081
                   Washington Metro Area        703- 487-5435

By Fax:            703-487-5402

By Internet:       www.doioig.gov /hotline
